No.
In The

Supreme Court of the United States
STEVE MORSA,
Petitioner
v.

U.S. PATENT AND TRADEMARK OFFICE,
Respondent
AKA IN RE STEVE MORSA

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OFAPPEALS
FOR THE FEDERAL CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
Steve 9vtorsa
(pm 1996
Thousand Oa(s,
CA 91358
(805)495-5025
stevemorsa@cs. com
(ProSe

JULY 2020

QUESTIONS PRESENTED
This Court has held that any machine or process is
eligible for patent protection under 35 U.S.C. § 101,
subject only to narrow exceptions where the patent seeks
to monopolize an abstract idea or law of nature.
Despite this, the Federal Circuit and Patent Office
have both run ineligibility amok. First, by ignoring this
Court’s seminal Cuno flash of creative genius eligibility
proof; second, by ignoring Patent Office proof of no undue
preemption; and third, by usurping and overruling this
Court’s Alice / Mayo claims analysis framework of
identifying no more than one stated abstract concept to
which all the claims at issue are directed to.
Accordingly, the three questions presented are1. May the Federal Circuit and Patent Office ignore
this Court’s seminal Cuno decision?
2. May the Federal Circuit and Patent Office ignore
Patent Office proof of no undue preemption?
3. May the Federal Circuit and Patent Office
establish their own Section §101 Law?

11

RELATED PROCEEDINGS
None
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

RELATED PROCEEDINGS

11

TABLE OF CONTENTS

n

TABLE OF APPENDICES & AUTHORITIES

m

CONSTITUTIONAL PROVISION INVOLVED

IV

OPINION AND ORDER BELOW

iv

JURISDICTION

iv

STATUTORY PROVISION INVOLVED

iv

INTRODUCTION

1

STATEMENT OF THE CASE AND
REASONS FOR GRANTING THE PETITION

1

I. The Federal Circuit and Patent Office Ignore Cuno 1
II. The Federal Circuit and Patent Office Ignore
Patent Office Proof of No Undue Preemption .... 3
III. The Federal Circuit Overrules Alice and Mayo and
7
establishes their own Section § 101 Law
IV. The Patent Office Overrules Alice and Mayo and
establishes their own Section § 101 Law.......... 11
CONCLUSION

13

Ill

APPENDIX A

Petitioner’s Rehearing Petition
(May 13, 2020)........................... la

APPENDIX B

Opinion of the Federal Circuit
(April 10, 2020)........................

APPENDIX C

18a

Order of the Federal Circuit Denying
Rehearing (June 11, 2020)....... 29a

TABLE OF CITED AUTHORITIES
Cases
U.S. Constitution Article. I, § 8, Cl. 8
35U.S.C. 101

Page(s)
. passim
iv, 2, 4, 5, 7, 9, 10

Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012) i, iv, 1, 2, 4, 5, 7, 8, 9, 10
Cuno Engineering Corp. v. Automatic Devices Corp.,
314 U.S. 84, 91 (1941)
i, 1, 2, 5
Alice Corp. v. CLS Bank Inti,
573 U.S. 208 (2014)................

i, 1, 2, 4, 5, 6, 7, 8, 9, 10

Kimble v. Marvel LLC, 135 S. Ct. 2401 (2015)

1

Shalala v. Ill. Council on Long Term Care,
529 U.S. 1, 18 (2000)............................................

2

Rivers v. Roadway Express, Inc.,
511 U.S. 298, 312 (1994). ......................

8

Chester v. Miller, 906 F.2d 1574, 1578
(Fed. Cir. 1990)........................................

8

In re Lee, 277 F.3d 1338, 1346 (Fed. Cir. 2002)

8

IV

CONSTITUTIONAL PROVISION
U.S. Const, art. I, § 8, cl. 8..................................

2

OPINION AND ORDER BELOW
The opinion of the Federal Circuit is reproduced at App.
18a • 28a. The Federal Circuit’s order denying rehearing
is reproduced at 29a - 30a.
JURISDICTION
The Federal Circuit entered judgment on April 10,
2020. The court denied Appellant’s timely petition for
rehearing on June 11, 2020. This Court has jurisdiction
under 28 U.S.C. § 1254(l).
STATUTORY PROVISION INVOLVED
35 U.S.C. 101 provides^
Inventions Patentable
“ Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and
requirements of this title.”

INTRODUCTION
“At the same time, we tread carefully in construing this
exclusionary principle lest it swallow all ofpatent la w. ”
{Mayo, 566 U. S.)
With the startling CAFC decision below, this
Court’s biggest innovation-crushing fear is now reality:
All of American patent law has indeed now been swallowed.
Only this Court -- our nation’s Supreme Court -can save the convulsing patient.
STATEMENT OF THE CASE AND
REASONS FOR GRANTING THE PETITION
Reference is made to my Federal Circuit Rehearing
Petition (RP) and Appendix (App); and to the Federal
Circuit’s Decision on Appeal (DOA).
I. The Federal Circuit and Patent Office Ignore Cuno
The Federal Circuit (twice), like the Patent Office
before it (twice at the Patent Trial and Appeal Board
(PTAB); once during examination), have both surprisingly
and disappointingly ignored this Court’s seminal Cuno
decision proof that the claims at issue — because the
Match Engine Marketing invention was the result of a
flash of creative genius -- are patent eligible (III; RP at 4 /
App. at 4):
“That is to say, the new device, however useful
it may be, must reveal the flash of creative genius,
not merely the skill of the calling. ” (Cuno
Engineering Corp. v. Automatic Devices Corp.,
314 U.S. 84, 91 (1941))

1

Starting with examination, I repeatedly declared
for the written record that I did not take the path some
others apparently have — merely taking some previously
existing “bricks and mortar” / pre-Internet / offline (or
some other previously-existing) process / system and
“computerizing” and / or “Internetting” it.
Instead, my invention’s 2004 genesis
Bid on
Demographics! - was an out-of-the-blue light bulb
moment; an epiphany; what’s often referred to as a “flash
of creative genius” (though I’m no genius). It did not
result from thinking up / inventing a way to computerize
or move to the Internet or computer networks something
currently in existence or from the past.
While Congress removed via the 1952 Patent Act
the requirement that an invention be the result of a flash
of creative genius in order to be eligible for patenting,
neither Congress nor this Court - including with the non­
conflicting Alice and Mayo decisions
have ever
abrogated, overruled, or otherwise eliminated this
eligibility basis. See, e.g., Kimble v. Marvel LLC, 135 S.
Ct. 2401 (2015); which says that precedent remains until
Congress overturns it. Shalala v. Ill. Council on Long
Term Care, 529 U.S. 1, 18 (2000) that reversal should be
explicit to be effective.
Because Congress has not explicitly reversed Cuno,
but rather only partially offset it, Cuno remains good law
as to claims that do not take advantage of the part of the
statute meant to address Cuno.
Accordingly, the claims of inventions which are,
like here, the result of a flash of creative genius are,
under Cuno, patent eligible.
This is eligibility dispositive.
analysis should have ended there.
2

The

eligibility

II. The Federal Circuit and Patent Office Ignore
Patent Office Proof of No Undue Preemption
The Federal Circuit and Patent Office either
misunderstood or ignored my no undue preemption
argument (DOA footnote #4 at 6 / App. at 24). In stark
contrast to my allegedly asserting that the claims “do not
preempt all advertising.” (something I’ve never said or
argued); I instead rely on the Patent Office’s 1.000’s of
issued advertising patents to objectively and factually
prove that mine preempt just that minimal amount of
advertising permitted under Alice, Mayo, and 35 U.S.C.
§101. And nothing more. US. Constitution Article. I, § 8,
Cl. 8.
“ We have described the concern that drives this
exclusionary principle as one ofpre-emption.”
CAlice, 134 S. Ct. at 2354)
As I first supplied during examination in 2015,
then later to the PTAB, and most recently to the Federal
Circuit; from the 10/19/2004 priority date of my two
previously approved and issued Match Engine Marketing
patents through 2014 (and now through 2019 for this
Court), the United States Patent Office reports the
following yearly issued advertising patent figures:
Number of Patents with “Advertising” in their Titles

2005: 56
2006: 74
2007: 55
2008: 65
2009: 81

2010: 118
2011: 136
2012: 199
2013: 277
2014: 284

3

2015:178
2016:164
2017:150
2018:151
2019:220
Total: 2.208

Number of Patents with “Advertisement” in their Titles
2005:
2006:
2007:
2008:
2009:

14
18
27
23
17

2010:
2011:
2012:
2013:
2014:

39
71
97
126
169

2015:120
2016:107
2017:122
2018:113
2019:155
Total: 1.218

Number of Patents with “Advertisements” in their Titles
2005:
2006:
2007:
2008:
2009:

11
30
10
20
23

2010:
2011:
2012:
2013:
2014:

47
70
86
120
126

2015:79
2016:64
2017:88
2018:91
2019:110
Total: 975

Patents with “Advertising” in their Specifications
(To insure accuracy, “Advertisement(s)”numbers not
separately included due to potential count overlap with
multiple forms of “Advertise”in some specifications)
2005:
2006:
2007:
2008:
2009:

1,909
2,591
2,393
2,507
2,802

2010:
2011:
2012:
2013:
2014:

4,284
4,948
5,853
6,848
7,393

2015:6,648
2016:6,762
2017:7,145
2018:6,918
2019:8,153
Total: 77.754

As
these
eye-opening,
irrefutable
official
government records objectively demonstrate and prove
beyond a shadow of doubt (no subjective / arguable
preemption crystal ball gazing needed here), advertising
innovation
and its resultant robust national and
international competition - is flourishing since the Match
Engine Marketing invention. Facts, not fiction.

4

Furthermore, these already impressive numbers
don’t even include the potentially up to 1,000’s more of
additional advertising-directed patents which (like mine)
contain no form of “Advertise” at all in their titles. The
only advertising (much less any other technology) my
mere few patents preempt is just that minimal amount to
which all inventors are legally and constitutionally
entitled to at least under Alice, Mayo, and 35 U.S.C. §101.
And nothing more. U.S. Constitution Article. I, § 8, Cl. 8
As the Patent Office’s own actual government
figures above make starkly and unmistakably clear; not
only are my claimed inventions not broad (because if they
were, why hasn’t the Patent Office used them to prior-artblock 1,000’s of post-2004 advertising patents / their
claims from issuing - including many, most, or all of the
1,000’s of patents above and their 10’s of 1,000’s of
associated claims?); they in fact occupy a very limited indeed only a tiny sliver of - the huge, continuously and
rapidly expanding universe of myriad types and forms of
advertising. Indeed, we’re talking here about just a tiny
few patents ... out of over 75,000 directed to, involving, or
related to advertising.
My invention is not even a blip on the screen or
drop in the bucket of this huge worldwide advertising
marketplace. Infinitesimal.
No research or invention preemption has occurred
or is occurring since the invention. No future innovations,
or fields of research beyond the actual invention, have
been foreclosed. No unwarranted obstruction to followon
innovations. No building blocks of human ingenuity,
fundamental principles or practices, or underlying ideas
have been tied up.

5

No technological progress is being stifled. No
unjustifiable impedance or monopolization of the free flow
of future discoveries, ideas, and information. No
inhibition of the progress of the useful arts. No one has
been or is being denied the same innovation /invention /
patenting opportunity I had.
Research and innovation in this technical field /
industry are vibrant and alive ... everywhere. 1.OOP’s of
federal government vetted and approved, non-preemoted
patented advertising innovations since 2005 leave no
doubt.
Accordingly,
the
Federal
Circuit’s
Ariosa
Diagnostics, Inc., (DOA footnote #4 at 6 / App. at 25)
(where such Patent Office eligibility proof - if it even
existed-- was not provided) - along with any and all,
“absence of complete preemption does not demonstrate
patent eligibility’ progeny and brethren Court, PTO
examination, and PTAB decisions
are all easily
distinguished from the instant invention and its PTOproven -eligible claims.
The Supreme Court and the Federal Circuit both
use preemption as the mechanism to evaluate whether a
claim is eligible or not. See also, e.g., Mayo 132 S. Ct. at
1294. And they are far from alone, as over 100 District
Court decisions since Alice have expressly considered
whether the claims preempt, even after applying the
Mayo / Alice framework.
This is eligibility dispositive for the instant claims.
The eligibility analysis should have ended there.

6

III. The Federal Circuit Overrules Alice and Mayo
and establishes their own Section § 101 Law
Even if, arguendo, Cuno and no undue preemption
didn’t confirm the eligibility of the instant claims; and a
proper prima facie case had been made; the Federal
Circuit contravenes the Alice framework and improperly
creates new Section § 101 law:
First: Though the Panel correctly initially
acknowledges that Alice requires the identification of no
more than one abstract concept (DOA at 6 / App. at 23):
“A patent claim is patent ineligible when ‘(l) it is ‘directed
to’ a (singular / one) patent-ineligible concept (singular /
one) . .
(emphasis / parenthetical provided); the Panel
then proceeds to overrule themselves by incorrectly
affirming the Board’s error of asserting multiple abstract
ideas against the instant claims: “The PTAB determined
that independent claim 2 is ‘directed to the concepts
(improper plural) of targeting advertisement for a user,
and (improper plural) using a bidding system to
determine how the advertisements will be displayed.’”
(emphasis / parenthetical provided)
The Panel Decision then cements their legal error
with the contradictory and conclusory: “ We disagree with
Mr. Morsa.” (the Panel saying that the PTAB’s multiple
abstract ideas is permissible). (DOA at 6 / App. at 24)
(emphasis provided).
Yet, no reasoned basis for multiple abstract ideas
was provided. Why did the Panel disagree? What is the
authority? When and where has the Supreme Court - this
Court -■ ever said multiple abstract ideas are permissible?
Footnote # 4 (DOA at 6 / App. at 24) is here unavailing; as
it instead concerns preemption (addressed in II, above).

7

The Panel then stated- “Independent claim 2 is
directed to the abstract idea and fundamental economic
practice of organizing human activities.” {DOA at 7 / App.
at 24); which incorrectly conflates categories of abstract
ideas with actual abstract ideas themselves. See, e.g.,
Alice at 10 (emphasis / parentheticals provided):
“Although hedging {the actual abstract idea) is a
long-standing commercial practice, id., at 599, it is a
method oforganizing human activity {the abstract
idea category} ...”
Further, just what is the “abstract idea” the Panel’s
statement referred to (as well as where else the Panel
refers to the “abstract idea”) - given that the Board
alleged Alice-non-compliant multiple (both stated and
^stated mystery) abstract concepts?
The Federal Circuit’s circular logic reliance on their
own, no-authority, multiple-abstract-ideas RecogniCorp
(DOA at 7; App. at 25) is inapposite. Alice - which
RecogniCorp fundamentally contradicts and conflicts with
(as do any and all other cases where multiple abstract
ideas / concepts are posited / alleged) - is the controlling,
Supreme Court authority on how many abstract ideas
may be alleged (one), (emphasis following supplied):
“ We hold that the claims at issue are dra wn to
the abstract idea ofintermediated settlement...”
Alice at 2352
“First, we determine whether the claims at issue
are directed to one of those patent-ineligible
concepts.” Alice at 2355
“We must first determine whether the claims at.
issue are directed to a patent-ineligible concept. ”
Alice at 2355
8

“ The claims at issue in Bilski described a method
for hedging against the financial risk ofprice
fluctuations.” Alice at 2355
“These claims are drawn to the abstract idea
ofintermediated settlement.” Alice at 2355
“It follows from our prior cases, and Bilski in
particular, that the claims at issue here are directed
to an abstract ideal Alice at 2356
“Because the claims at issue are directed to the
abstract idea ofintermediated settlement ..."Alice at
2357
“First, we determine whether the claims at issue
are directed to one of those patent-ineligible
concepts'.' Mayo at 1296-1297
In sharp contrast, neither the Patent Office, nor the
Federal Circuit, nor even the Solicitor have ever identified
any contrary multiple abstract ideas / concepts quotes
from the controlling Alice, Mayo, and Bilski. Which is
unsurprising, as there are none.
Enough is enough. There’s no confusion here. No
subjectivity. No uncertainty. No gray area. No
interpretation needed. This Court said what it means and
means what it says: One stated abstract idea. All the
claims at issue. Not two. Not three. Not four or more.
One. One can’t be identified? Then the claims are §101
eligible. The Alice /Mayo analysis stops there. Step two is
moot. Just as this Court nrescientlv instructed.
Courts - including the Federal Circuit -- cannot
modify or supplant this Court’s law regarding patent
eligibility. See, e.g. Rivers v. Roadway Express, Inc., 511
U.S. 298, 312 (1994):
9

“[Ojnce the [Supreme] Court has spoken, it is the
duty of other courts to respect that understanding
of the governing rule ofla w. ”
Second- Though the DOA is painfully silent
regarding this also important infirmity, it implicitly -- and
incorrectly
permits the startling and inapposite
assertion of some unknown number of unknown alleged
“similar” concepts: “Similarly, while the dependent claims
are each more specific, they are drawn to the same or a
similar concent as well...” (PTAB Decision On Appeal at
7) (emphasis provided) (VI; RP at 10 / App. at 9)
As with multiple alleged abstract ideas / concepts,
nowhere in Alice or Mayo does this Court say anything
about “similar” (to an alleged one single) abstract
concepts being applied against claims.
To insure that all of patent law would not be
swallowed, in both decisions this Court wisely stated one
idea / concept and stood by it. Start to finish. Beginning to
end. Never wavering. Accordingly, the Board’s “similar”
allegations are inapposite. Rivers.
Moreover, how does one even begin to traverse such
unidentified, mystery concepts? It’s impossible. As
explained in my briefs, this is a clear denial of due
process. See, e.g., Chester v. Miller, 906 F.2d 1574, 1578
(Fed. Cir. 1990):
Section 132 "is violated when a rejection is so
uninformative that it prevents the applicant from
recognizing and seeking to counter the grounds
for rejection."

10

“[t]he agency tribunal must make bindings of
relevant facts, and present its reasoning in
sufficient detail that the court may conduct
meaningful review of the agency action.” In re
Lee, 277 F.3d 1338, 1346 (Fed. Cir. 2002). The
Board must “set forth the findings and
explanations needed for ‘reasoned decision
making”) (emphasis supplied)
As the preceding First & Second make clear,
neither the Federal Circuit nor the Patent Office are
following the eligibility framework this Court established
with its issue-controlling Alice decision:
No more than one stated abstract idea / concept to
which all of the claims at issue are directed to.
Why is this Court’s simple (yet critically important)
instruction so hard for some to accept and follow?
IV. The Patent Office Overrules Alice and Mayo
and stablishes their own Section § 101 Law
While the Patent Office is to be commended for
doing their level best to stabilize claims eligibility
analysis over the past several years, the agency
nevertheless tumbles off the rails by materially enabling
the swallowing of patent law by joining the Federal
Circuit in improperly permitting allegations of multiple
judicial exceptions in a single claim; including multiple
abstract ideas.
Even going the Federal Circuit one worse by
tossing
their
own,
Supreme
Court-unapproved,
innovation-toxic ingredients into the eligibility witches
brew. See, e.g., the Patent Office’s October 2019 Update
(emphasis in original):
11

October 2019 Update: Subject Matter Eligibility
I. Evaluating Whether a Claim Recites a Judicial
Exception at Step 2A Prong One
B. Multiple Judicial Exceptions Recited in a Claim
Clarification was requested on how claims reciting
multiple judicial exceptions are treated. A claim
can recite more than one judicial exception (i.e.,
abstract idea, law of nature, or natural
phenomenon).MPEP 2106.05(11) when analyzing
the claims for eligibility.6 5 In some claims, the
multiple exceptions are distinct from each other,
e.g., a first limitation describes a law of nature,
and a second limitation elsewhere in the claim
recites an abstract idea. In these cases, examiners
should continue to follow existing guidance in
MPEP 2106.05(11) when analyzing the claims for
eligibility.6
Other claims may recite multiple abstract ideas,
which may fall in the same or different groupings,
or multiple laws of nature. In these cases,
examiners should not parse the claim. For
example, in a claim that includes a series of steps
that recite mental steps as well as a mathematical
calculation, an examiner should identify the claim
as reciting both a mental process and a
mathematical concept for Step 2A Prong One to
make the analysis clear on the record. However, if
possible, the examiner should consider the
limitations together to be an abstract idea for Step
2A Prong Two and Step 2B (if necessary) rather
than a plurality of separate abstract ideas to be
analyzed individually.7 This is illustrated in, e.g.,
Example 45 (Controller for Injection Mold), and
Example 46 (Livestock Management).
12

Patent madness indeed. Eligibility analyses are
frustrating and confounding enough for everyone including for our busy Courts - without the Fed. Cir. and
Patent Office improperly piling on multiple and mystery
abstract concepts to the Alice / Mayo analysis.
Only this Court can put an end to it.
Given the preceding and with no time to waste, this
case is the ideal vehicle to end the madness.
Companies and investors are withholding R&D and
other investments they would have made before the
CAFC and Patent Office went ineligibility amok. Waiting
to intervene could inflict irreparable U.S. industry harm especially in the economy-ravaged age of Covid*19.
Conclusion
With Section § 101 Law now firmly and
unconstitutionally in the malleable, unchecked hands of
the Federal Circuit and Patent Office, the petition for a
writ of certiorari should be granted.(l)(2)
Respectfully requested July 8th, 2020.
Is/ Steve Morsa
1 In its woeful, jaw-dropping unwillingness to rebalance and
restore the broken scales of justice, the Federal Circuit also
contravened settled law by: 1. Improperly permitting the Solicitor to
raise new arguments and rationales for the first time on appeal (I; RP
at 3 / App. at 3); 2. Improperly permitting the Patent Office to break
their own Rules & Regulations (II; RP at 4 / App. at 3); 3. Ignoring
the lack of a required Patent Office prima facie case (V; RP at 7 / App.
at 6); 4. Incorrectly affirming that a representative claim exists (VIII;
RP at 14 / App. at ll); 5. Ignoring the integral technological elements
which confirm eligibility of the claims (IX; RP at 15 / App. at 13); 6.
Ignoring the computer function improvements which confirm
eligibility of the claims (X; RP at 17 / App. at 14).

13

The Patent Office also contravened settled law by: 1.
Breaking their own Rules & Regulations (II; RP at 4 / App. at 3); 2.
Failing to make the required prima facie case (V; RP at 7 / App. at 6);
3. Improperly designating a representative claim (VIII; RP at 14 /
App. at 11); 4. Ignoring the integral technological elements which
confirm eligibility of the claims (IX; RP at 15 / App. at 13); 5. Ignoring
the computer function improvements which confirm eligibility of the
claims (X; RP at 17 / App. at 14).
In defending two facts and law indefensible PTAB decisions,
the Solicitor also contravened settled law by raising new arguments
and rationales for the first time on appeal (I; RP at 3 / App. at 3).
2
As NPR and others have reported and historical Patent
Office and government edicts and records reflect; our nation has a
long and sordid history of denying and restricting African Americans
from obtaining patents. See, e.g., Dr. Lisa Cook, Patent Racism (NPR
2020); Brian L. Frye, Invention of a Slave, 68 Syracuse L. Rev. 181,
194 (2018) (historical analysis); Kara W. Swanson, Race and Selective
Legal Memory: Reflections on Invention of a Slave, 120 Columbia
Law Review 1077 (2020) (reflection on historical and ongoing impact);
Professor Dennis Crouch, Invention of a Slave and the Ongoing
Movement for Equal Justice (PatentlyO 2020).
Most recently, the Federal Circuit, Patent Office, and
Solicitor’s above-detailed misapplication of the Alice / Mayo eligibility
framework is causing especially severe damage to these and other
beleaguered minority and female inventors. To those least able to
obtain critical patent protection and financing for their inventions
and the new companies to be created therefrom.
Shockingly and abhorrently, fewer than 1% of start-up
founders who receive venture funding are Black. Less than 1% are
Women of Color. Less than 3% are Women. The difficulty in. or
impossibility of obtaining - or holding onto - patent protection for
their innovations is one of the reasons why.
No patents. No funding. No new companies. No new jobs. No
American opportunity for them or their families.
This Court - Your Honors - can and should use this case to
help put an end to this long-entrenched innovation inequity.
“A new and useful machine invented by a slave cannot be patented.”
Attorney General’s Office, June 10, 1858
14

